U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

July 30, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Richard Blumenthal, et al. v. Donald J. Trump, President of United States,
S.Ct. No. 20-5

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 6, 2020,
and placed on the docket on July 9, 2020. The government’s response is due on August 10,
2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 9, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0005
BLUMENTHAL, RICHARD, ET AL.
DONALD J. TRUMP, PRESIDENT OF U.S.

BEN FLEUR
CHAIRMAN
CALIFORNIA APPELLATE LAW GROUP LLP
96 JESSIE STREET
SAN FRANCISCO, CA 94105
415-649-6700
BEN.FEUER@CALAPPLAW.COM
BRIANNE JENNA GOROD
CONSTITUTIONAL ACCOUNTABILITY
CENTER
1200 18TH STREET, NW
SUITE 501
WASHINGTON, DC 20036
202-296-6889
BRIANNE@THEUSCONSTITUTION.ORG
ERICA C. LAI
COHEN & GRESSER LLP
2001 PENNSYLVANIA AVE. NW
SUITE 300
WASHINGTON, DC 20006
202-851-2070
ELAI@COHENGRESSER.COM
DEVIN M. MISOUR
REED SMITH
REED SMITH CENTRE
225 FIFTH AVENUE
PITTSBURGH, PA 15222
412-288-3091
DMISOUR@REEDSMITH.COM

